BSF

BO IES
SCHILLER
FLEXNER

October 14, 2021

VIA ELECTRON IC FILING
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington , DC 20543·001

Re : Cassirer v. Thvssen·Bor nemisza Collection Foundation . No. 20·1566
Dear Mr. Harris :
I represent the petitioner in the above-captio ned matter. On behalf of both
parties, I am writing to request an extension of time for the merits briefing and
joint appendix (if any) in this case, as follows :
Petitioner's brief (and joint appendix) : December 15, 2021
Respondent 's brief:
February 14, 2022
Petitioner's reply:
March 16, 2022
Both parties have agreed to this proposed schedule, which would allow the
Court to hold oral argument during the 2021 Term. Please let me know if you need
any additional information .

Respectfully yours,

~~

David A. Barrett
Counsel for Petitioner
cc: All counsel of record

BOIES SCHILLER FLEXNER LLP
5 5 Huds on Yards. New Yo r k. NY 10 001 I (t) 212 446 2300 I (f) 212 446 2350 I ww w.bsfllp.com

